IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

SHIKISHA MONET TIDMORE -PETITIONER
VS.
JEREMY HOWARD-RESPONDENT
PROOF OF SERVICE
I, Shikisha Monet Tidmore. do swear or declare that on this date,

as

required by Supreme Court Rule . 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid.
-The names and addresses of those served are as follows:
Dana Nessel,
Attorney General
P.O.Box 30212
Lansing, Michigan 48909
I declare under penalty of perjury that the foregoing is true and correct.
Executed oqj
<_^-81ukisha Mefiet Tidmore
Petitioner

